   Report No. D-2008-119          September 29, 2008




Construction Contracting Procedures Implemented by the
      Joint Contracting Command-Iraq/Afghanistan
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector General
for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and requests can
also be mailed to:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BAF                           Bagram Air Field
DCMA                          Defense Contract Management Agency
FAR                           Federal Acquisition Regulation
JCC-I/A                       Joint Contracting Command-Iraq/Afghanistan
LOGCAP                        Logistics Civilian Augmentation Program
O&M                           Operation and Maintenance
PARC-A                        Principal Assistant Responsible for Contracting-
                              Afghanistan
RCC                           Regional Contracting Command
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704



                                                                               September 29, 2008

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY FOR ACQUISITION,
                 LOGISTICS, AND TECHNOLOGY
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY
               COMMANDER, JOINT CONTRACTING COMMAND-
                  IRAQ/AFGHANISTAN

SUBJECT: Construction Contracting Procedures Implemented by the Joint Contracting
         Command-Iraq/Afghanistan (RepOit No. D-2008-119)

We are providing this report for review and comment. We considered comments from the Office
of the Assistant Secretary of the Army for Acquisition, Logistics, and Technology responding for
the Commander, Joint Contracting Command-Iraq/Afghanistan when preparing the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The Assistant
Secretary's comments were not responsive because the comments addressed only the audit finding
and did not address the audit recommendations. Therefore, we request additional comments from
the Assistant Secretary of the Army for Acquisition, Logistics, and Technology and request initial
comments from the Director, Defense Contract Management Agency by October 20, 2008.

Your comments should state whether you agree or disagree with the finding and
recommendations. If you agree with our recommendations, describe what actions you have taken
or plan to take to accomplish the recommendations and include the completion dates of your
actions. If you disagree with the recommendations or any part of them, please give specific
reasons why you disagree and propose alternative action if that is appropriate.

Please provide comments that conform to the requirements of DoD directive 7650.3. If possible,
send management comments in electronic format (Adobe Acrobat file only) to
AudJ&OO@dodig.mil. Copies of the management comments must have the actual signature of
the authorizing official for your organization. We cannot accept the / Signed / symbol in place of
the actual signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network.

We appreciate the courtesies extended to the staff. Questions should be directed to Mr. Timothy
E. Moore at (703) 604-9068 (DSN 312-664-9068). The team members are listed inside the back
cover.




                                            1~t~
                                            Deputy Director
                                            Joint and Overseas Operations Directorate
                    Report No. D-2008-119 (Project No. D2007-D000LQ-0261.000)
                                        September 29, 2008


               Results in Brief: Construction Contracting
               Procedures Implemented by the Joint
               Contracting Command-Iraq/Afghanistan
                                                        RCC Bagram did not follow required Federal
What We Did                                             Acquisition Regulation standards for contracting
We evaluated contingency construction                   procedures relating to:
contracting procedures implemented by Joint                • price reasonableness,
Contracting Command-Iraq/Afghanistan, the                  • quality assurance, and
Afghanistan area of operations.                            • contract oversight.

What We Found                                           What We Recommend
Regional Contracting Command (RCC) Bagram               We recommend that:
contracting officials accepted construction               • the Joint Contracting Command-
projects at Bagram Air Field that required                    Iraq/Afghanistan ensure independent
extensive rework by KBR, formerly known as                    Government cost estimates are prepared
Kellogg Brown and Root, Inc., to be useable by                during all solicitations.
U.S. troops. RCC Bagram did not adhere to the             • the Joint Contracting Command-
Federal Acquisition Regulation guidance on                    Iraq/Afghanistan ensure quality control
contract documentation and quality oversight                  plans and quality assurance surveillance
requirements that would have prevented the                    plans are prepared for all construction
substandard quality of the construction projects.             projects.
As a result, the U.S. Government incurred
additional costs of at least $3.4 million to            Client Comments and Our
perform additional work on newly constructed,           Response
refurbished, and remodeled buildings in
Afghanistan. In addition, U.S. military units           We request that the Commander, Joint
and organizations experienced delays in                 Contracting Command-Iraq/Afghanistan
receiving fully useable facilities throughout           provide comments in response to this report.
Afghanistan.                                            Please see the recommendations table on the
                                                        back of this page.
The 42 construction contract actions selected for
review were either not available or had contract
documentation deficiencies. RCC Bagram was
unable to locate 2 contract files, and the other
40 contract files did not contain:
    • quality assurance surveillance plans,
    • contractor quality control plans, and
    • contracting officers representative
       designation letters.




                                                    i
              Report No. D-2008-119 (Project No. D2007-D000LQ-0261.000)
                                  September 29, 2008

Recommendations Table
Client                          Recommendations            No Additional Comments
                                Requiring Comment          Required
Commander, Joint Contracting    1.a., 1.b., 2.c., 2.d.     2.a., 2.b., 2.e.
Command-Iraq/Afghanistan



Please provide comments by October 20, 2008.




                                           ii
Table of Contents

Results in Brief                                                           i

Introduction                                                               1

       Objectives                                                         1
       Background                                                         1

Finding. Joint Contracting Command-Iraq/Afghanistan Construction           2
         Deficiencies

       Recommendations, Client Comments, and Our Response                  6

Appendices

       A. Scope and Methodology                                            9
              Review of Internal Controls                                  9
              Prior Coverage                                               9
       B. Bagram Air Field Building Construction Request Procedures       10
       C. Joint Contracting Command-Iraq/Afghanistan Contracts Reviewed   12


Management Comments

       Joint Contracting Command-Iraq/Afghanistan                         15
Introduction
Objectives
Our objective was to evaluate contingency construction contracting procedures
implemented by Joint Contracting Command-Iraq/Afghanistan (JCC-I/A) in the
Afghanistan area of operations.

Background
JCC-I/A is the primary contracting command for U.S. forces in Afghanistan. The
Principal Assistant Responsible for Contracting-Afghanistan (PARC-A) supervises
contracting procedures in Afghanistan for JCC-I/A. The PARC-A is headquartered at
Bagram Air Field (BAF). The PARC-A has five subordinate Regional Contracting
Commands (RCC) located at Salerno, Bagram, Kabul, Kandahar, and Fenty.

RCC Bagram executes construction contracts for military units and other Government
organizations. Military units or organizations that have requirements for construction
have those requirements validated by the Installation Facilities Use Board and approved
by the Facility Engineer Team. The Facility Engineer Team determines whether
RCC Bagram is the appropriate contracting agency for the requesting unit or
organization. If so, the Facility Engineer Team directs RCC Bagram to proceed with
contracting for the requesting unit. See Appendix B for BAF Building Construction
Request Procedures.

The Defense Contract Management Agency (DCMA) administers the Logistics Civilian
Augmentation Program (LOGCAP) contract. The LOGCAP contract, currently awarded
to KBR, includes requirements for the contractor to provide Operation and Maintenance
(O&M) services for buildings on installations throughout Afghanistan. KBR conducts
technical inspections before assuming the maintenance responsibility for any buildings
constructed by another contractor or troop labor. During these technical inspections,
KBR has identified substandard construction that must be reworked before KBR will
assume responsibility for the maintenance of the building.

According to Federal Acquisition Regulation (FAR) Subpart 46.5, “Acceptance,”

              Acceptance constitutes acknowledgement that the supplies or services
              conform with applicable contract quality and quantity requirements,
              except as provided in this subpart and subject to other terms and
              conditions of the contract. Acceptance may take place before delivery,
              at the time of delivery, or after delivery, depending on the provisions of
              the terms and conditions of the contract. Supplies or services shall
              ordinarily not be accepted before completion of Government contract
              quality assurance actions.




                                                  1
Finding. Joint Contracting Command-Iraq/
Afghanistan Construction Deficiencies
RCC Bagram contracted for construction projects that were accepted in substandard
condition and required extensive rework by the maintenance contractor, KBR. This
occurred because RCC Bagram did not adhere to FAR guidance on documentation
standards and quality assurance procedures. DoD has paid at least $3.4 million to bring
newly constructed buildings in Afghanistan up to acceptable standards.

Documentation Standards
RCC Bagram awarded 321 contracting actions it categorized as construction contracts
during FY 2007. Of the 321 contracting actions, we identified 42 for the construction or
refurbishment of buildings. We excluded the remaining 279 contracting actions that were
for small construction projects such as fencing or delivery of materials. We reviewed the
contract files maintained at RCC Bagram for the 42 contracting actions (see
Appendix C), worth approximately $1.9 million. Of those 42 contract actions, 2 contract
files were missing completely. FAR Subpart 4.805, “Storage, Handling, and Disposal of
Contract Files,” states that the contracting office should retain construction contract files
for a minimum of 3 years. FAR Subpart 4.803, “Contents of Contract Files,” states that
quality assurance and surveillance records should be maintained in the contract files. The
following documentation was not included in the remaining 40 contract files:
    • quality assurance surveillance plans,
    • contractor quality control plans, and
    • contracting officer’s representative designation letters.

Quality Assurance Surveillance Plans
FAR Subpart 46.4, “Government Contract Quality Assurance,” states that Government
contract quality assurance must be performed at such times (including any stage of
manufacture or performance of services) and places (including subcontractors’ plants) as
may be necessary to determine that the supplies or services conform to contract
requirements. Quality assurance surveillance plans should be prepared in conjunction
with the preparation of the statement of work. The plans should specify all work
requiring surveillance and the method of surveillance. FAR Subpart 46.4 (e) states that
Government inspection must be performed by or under the direction or supervision of
Government personnel. The use of quality assurance surveillance plans by RCC Bagram
would help ensure that contractors are performing to contract specifications.

Contractor Quality Control Plans
FAR Subpart 46.201, “Quality Assurance: General,” states that the contracting officer
should include appropriate contractor quality requirements during the solicitation. This
section of the FAR calls for appropriate levels of quality requirements, which may range
from inspection at the time of acceptance to a comprehensive program for controlling
quality, to be included in the contract.


                                             2
FAR Subpart 46.312, “Construction Contracts,” calls for the inclusion of the following
clause in construction contracts when in the best interest of the U.S. Government:

               The Contractor shall maintain an adequate inspection system and
               perform such inspections as will ensure that the work performed under
               the contract conforms to contract requirements.

RCC Bagram should have included this clause in the contracts and enforced this clause to
ensure that the contractor had a quality control plan. Use of such quality control plans by
the contractor would have improved the quality of construction received by the
U.S. Government.

Contracting Officer Representative Designation Letters
FAR Part 4.803 states that contract files should include documents that modify the
normal assignment of contract administration functions and responsibilities. Contracting
officer’s representative designation letters assign administrative functions and
responsibilities and therefore should be included in the contract file. RCC Bagram did
not include any designation letters in the contract files reviewed. RCC Bagram must
require activities that are requesting contracting services to identify qualified personnel to
serve as contracting officer’s representatives, and the contracting officer to prepare a
designation letter to include in the contract file.

Contracting Procedures
RCC Bagram did not follow FAR standards for contracting procedures relating to:
  • price reasonableness,
  • quality assurance, and
  • oversight.

Price Reasonableness
When awarding contracts using methods other than fair and open competition,
RCC Bagram did not include an independent Government cost estimate for construction
contracts within the contract file. RCC Bagram awarded 21 of the 42 construction
contracts we reviewed using methods other than fair and open competition. FAR
Part 36.203 states that an independent Government estimate of cost should be prepared
for all construction contracts.

Quality Assurance
RCC Bagram awarded construction contracts that had poorly written statements of work.
The statements of work often lacked specific requirements and did not clearly define the
acceptable standards for construction projects. JCC-I/A personnel stated that a lack of
available subject matter experts to consult with during the procurement phase of the
contracting process was a reason for the poor statements of work. The nonspecific,
unclear statements of work contributed to the poor quality of buildings and projects
accepted by the U.S. Government.



                                                3
Oversight
RCC Bagram accepted final receipt of buildings and construction projects that did not
meet contract specifications or requesting unit requirements. RCC Bagram personnel
stated that there was a lack of qualified oversight personnel available from either the
requesting organization or the Facilities Engineer Team to serve as contracting officer
representatives. RCC Bagram personnel stated that the receiving units often provide
personnel to serve as contracting officer representatives, but they may not have the
technical expertise required to oversee construction. Additionally, because RCC Bagram
did not require the contractors to submit a quality control plan with their bid proposals,
there was no assurance that the contractors had completed the work satisfactorily.
Because RCC Bagram did not require quality assurance surveillance plans, there were no
clear metrics for Government personnel to use to assess the work of the contractors.

Monetary Significance
The LOGCAP contract in Afghanistan is divided into different task orders with regional
responsibility. We requested that KBR identify the amount of rework performed from
August 2006 to November 2007. KBR was able to identify $3.4 million of rework
charged for this time period. The KBR country manager worked with DCMA officials to
provide the following data:

          TASK ORDER                   DATE RANGE                      COST
           Task order 116        August 2006-November 2007        $    739,659.17
           Task order 118          April 2007-August 2007         $     52,792.08
           Task order 142        February 2007-August 2007        $ 2,624,236.93
              TOTAL                                               $ 3,416,688.18

We derived the cost of the work from documented Rough Order of Magnitude cost
estimates submitted for rework completed. These estimates include only rework
completed that had documented Rough Order of Magnitude cost estimates contained in
the contract files. Because actual rework costs were not tracked prior to this audit, the
actual amount of rework may have been much greater. Examples of KBR-performed
rework at BAF include rewiring of troop housing units, reinstalling sewage lines for
latrines, and repairing flooring and other building materials that had not been installed
properly.

Conclusion
RCC Bagram did not adhere to FAR regulations that could have prevented more money
being spent on rework paid to KBR. RCC Bagram implementation of quality controls
called for in the FAR could have prevented the waste of funds and provided better
operating conditions for U.S. troops. Additionally, RCC Bagram did not maintain
appropriate contract documentation in their contract files, which would have identified
issues that were causing problems in the quality oversight process.




                                             4
Corrective Actions, Client Comments on the Finding,
and Audit Response
The Office of the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology provided a list of corrective actions taken since completion of the audit to
address systemic problems found in the report. The Assistant Secretary also provided
client comments on our finding but did not provide comments on the audit
recommendations.


Corrective Actions
The Joint Contracting Command-Afghanistan has assembled a Procurement Management
Review Team to ensure its contracting officers are performing their duties in accordance
with regulatory guidelines and law. The Procurement Management Review Team
identifies contracts requiring contracting officer representatives and reviews those
contracts for regulatory compliance. The Procurement Management Review Team sends
contract files that are deficient back to the contracting officer for corrective action.
Those files are subsequently rechecked by the Regional Contracting Office Chief and the
Procurement Management Review Team. In addition, the Combined Joint Task
Force-82, in coordination with the Joint Contracting Command-Afghanistan, issued a
command directive outlining command responsibility for the appointment of contracting
officer representatives. Sixty-seven contracts have been delegated to the Defense
Contract Management Agency Theater-Wide Contract Administration Afghanistan for
contract administration oversight. The Combined Joint Task Force-101, which replaced
Combined Joint Task Force-82, is preparing, in coordination with the Joint Contracting
Command-Afghanistan, a statement of work to procure quality assurance representatives.
The objective will be to increase on-ground technical capability to track contractor
performance prior to Government acceptance of construction projects.


Client Comments
The Assistant Secretary disagreed with the finding that quality assurance surveillance
plans were not included in contract files and that the use of quality assurance surveillance
plans would have improved the quality of construction received by the U.S. Government.
The Assistant Secretary stated that quality assurance surveillance plans are specifically
for service contracts, not construction contracts. The Assistant Secretary also disagreed
with the finding that contracting officer’s representative designation letters were missing
from contract files and stated that RCC Bagram is not responsible for designating
qualified contracting officer representatives. The Assistant Secretary also stated that it
has been and continues to be an ongoing struggle for RCC Bagram to acquire qualified
contracting officer representatives from the requiring activities to conduct quality
assurance on construction projects. The Assistant Secretary requested that the DoD
Office of Inspector General consider having the FAR changed to ensure that the
responsibility and accountability of nominating qualified contracting officer
representatives be with the requiring organization and not with the contracting office.



                                             5
The Assistant Secretary also highly recommended that the FAR require contracting
officer representative duties to be an individual’s primary duty.


Audit Response
FAR Subpart 46.402(e), “Government Contract Quality Assurance at Source,” states that,
“Agencies shall perform contract quality assurance, including inspection, at source if
government inspection during contract performance is essential.” Quality assurance
surveillance plans ensure effective Government contract quality assurance, and the
finding of this audit indicates that Government inspection during contract performance is
essential for construction contracts in Bagram, Afghanistan. Therefore, RCC Bagram
contracting officers should be developing quality assurance surveillance plans as stated in
the draft report. The Assistant Secretary requests that the DoD Office of Inspector
General research changing the FAR; however, we feel that the Assistant Secretary, using
lessons learned during contingency contracting, could submit a more cogent request for
change regarding contingency contracting procedures.




Recommendations, Client Comments, and
Our Response
   1. We recommend that the Commander, Joint Contracting Command-Iraq/
      Afghanistan:
          a. Conduct periodic conferences to discuss and monitor construction
      contracting procedures.
          b. Use subject matter experts to assist contracting officers during the
      solicitation process to ensure that accurate and measurable metrics are
      included in contract Statements of Work.


Client Comments
Neither the Office of the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology nor the Commander, Joint Contracting Command-Iraq/Afghanistan
responded to this recommendation. We request that the Assistant Secretary or
commander send comments in response to the final report by October 20, 2008.

   2. We recommend that the Commander, Joint Contracting Command-Iraq/
      Afghanistan require internal controls as necessary to ensure that:
          a. Federal Acquisition Regulations on documentation retention, quality
      assurance, and oversight are followed.
          b. All contractors submit a quality control plan with their bids during
      the solicitation of construction contracts.
          c. Quality assurance surveillance plans are included in the contracting
      files and executed by the contracting officer representatives.



                                            6
          d. Qualified personnel are available to serve as contracting officer
       representatives for construction projects and that the appropriate
       designation letters are included in the contract file.
          e. Independent Government cost estimates or other means of ensuring
       price reasonableness are documented when awarding contracts using other
       than fair and open competition.


Client Comments
The Commander, Joint Contracting Command- Iraq/Afghanistan did not respond directly
to this recommendation. However, the response received from the Assistant Secretary of
the Army for Acquisition, Technology, and Logistics concerning the audit finding and
corrective actions taken showed agreement with the recommendations except for
Recommendations 2.c. and 2.d.


Audit Response
We request that the Assistant Secretary reconsider his response to Recommendations 2.c.
and 2.d. and provide comments in response to the final report by October 20, 2008.




                                           7
8
Appendix A. Scope and Methodology
We conducted this performance audit from August 2007 through July 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed construction contract data from the RCC Bagram located at BAF,
Afghanistan. RCC Bagram is one of five subordinate commands under JCC-I/A in
Afghanistan. We reviewed contracting data for 321 contracting actions awarded by RCC
Bagram during the FY 2007 categorized as construction contracts. Of the 321
contracting actions, we identified 42 for the construction or refurbishment of buildings.
We excluded the remaining 279 contracting actions that were for small construction
projects such as fencing or delivery of materials. We reviewed the contract files
maintained at RCC Bagram for the 42 contracting actions (see Appendix C), worth
approximately $1.9 million. Of those 42 contract actions, 2 contract files were missing
completely. We also reviewed billing documentation for O&M tasks performed by KBR
as part of its LOGCAP contract.

Review of Internal Controls
We identified material internal control weaknesses for the JCC-I/A as identified by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006, as they applied to the audit objective. DoD Instruction 5010.40 states that internal
controls are the organization’s policies and procedures that help program and financial
managers achieve results and safeguard the integrity of their programs. JCC-I/A did not
have procedures in place to ensure compliance with the FAR. Implementing our
recommendations will improve the internal controls over FAR compliance. We will
provide a copy of the report to the senior JCC-I/A official responsible for internal
controls

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
No prior coverage of JCC-I/A construction contracting procedures was conducted within
the last five years.




                                            9
Appendix B. Bagram Air Field Building
Construction Request Procedures
Military or Government units requesting a new building on BAF submit requests to the
Facility Engineer Team. End-user units must define their requirements and submit a
work request that outlines their needs and specifications for construction.

The Facility Engineer Team will validate and prioritize the customer requirements. The
request is then submitted to the Combined Joint Task Force-82 Work Request Monitor.
If the request is considered a priority, the Work Request Monitor reviews and submits the
requirements to the Work Request Review Board.

Once the requirements are reviewed for completeness by the Work Request Review
Board, the request is forwarded to the Installation Facility Use Board who validates that
the requirements are in accordance with the Base Master Plan. If they are in accordance
with the Master Plan, the Installation Facilities Use Board will forward the request to the
Facility Engineer Team for execution.

The Facility Engineer Team will then determine the means of executing the construction.
The Facility Engineer Team has three options in the following preference order to obtain
construction services:
       1) troop labor,
       2) RCC Bagram staff, and
       3) LOGCAP Contractor.

If the Facility Engineer Team determines RCC Bagram staff will execute the request,
RCC Bagram will solicit the project and award the contract to an independent contractor.
The Facility Engineer Team will then assign a project manager and RCC Bagram will
designate the project manager as the contracting officer representative. The project
manager works with the customer to develop the scope of work and to develop a
preliminary cost estimate. When the Facility Engineer Team does not have available
personnel to serve as project manager, then the requesting unit must provide one. The
following flowchart outlines the requesting process:


   Requesting          Facility         Installation       RCC              Independent
   Unit                Engineer         Facility Use       Bagram           Contractor
                        Team              Board

                              Requirements Approval Process

After completion of the request, the project manager will determine whether continuous
maintenance is required for the facility. If so, the customer is directed to prepare a
LOGCAP request letter for maintenance support from KBR. KBR will then perform a
technical inspection of the building before assuming the O&M responsibility. If KBR


                                             10
identifies deficiencies during the technical inspection, it will submit a work order to
DCMA identifying the deficiencies needing remediation to bring the building to
acceptable standards. KBR officials stated that acceptable standards are those that they
are required to maintain under the provisions of the LOGCAP contract, usually in line
with U.S. standards. If DCMA approves the work order, KBR will fix the deficiencies
and repair the building to standard.


                                                          Work
   Complete         KBR                Deficiency         Order                Rework
   Building         Technical          Identified         Submitted            Completed
                    Inspection                            to DCMA
                                 Maintenance Process




                                            11
Appendix C. Joint Contracting Command-
Iraq/Afghanistan Contracts Reviewed
The following contracts were issued by JCC-I/A Regional Contracting Command
Bagram and reviewed by DoD IG auditors for the purposes of this audit.

 Contract
              Contract Number
  Action                                  Description                Cost
             W91B4N-07-M-0542
    1                                 B-Hut Renovation          $     10,226.00
             W91B4N-07-M-0704
    2                                  Install Carpeting        $         500.00
              W91B4N06C0055           Install Re-locatable
    3                                                           $     45,580.00
                                            Building
    4         W91B4N07C0021           Renovate Building         $     88,027.00

    5         W91B4N07C0021                  CLIN 1             $         800.00

    6         W91B4N07C0025           Renovate Building         $     24,900.00

    7         W91B4N07C0033              Install Walls          $      1,230.00

    8         W91B4N07C0036           B-hut Renovations         $      3,025.99

    9         W91B4N07C0038            Drainage Culvert         $    555,315.00

    10        W91B4N07C0038                  MOD 1              $     69,630.00

    11        W91B4N07C0038                  MOD 2              $      9,975.48

    12        W91B4N07C0038                  MOD 3              $     13,926.00

    13       W91B4N07M0445            B-Hut Modification        $     89,339.13

    14       W91B4N07M0704              No Description
                                    Installation of Door and
    15       W91B4N07M0784                                      $      1,634.00
                                              Walls
    16       W91B4N07M1087                   No File            $     94,601.00

    17       W91B4N07M1208                   No File            $         424.00

    18        W91B4N07C0047           B-Hut Construction        $     17,597.00

    19        W91B4N07C0056         Construct Guard Tower       $      3,950.00

    20        W91B4N07C0077               Excavation            $      7,750.00

    21        W91B4N07C0078        Install Fresh Water Tanks    $      6,000.00
                                   Brick and Mortar Guard
    22        W91B4N07C0079                                     $     27,700.00
                                            Tower
                                   Addition to Statement of
    23        W91B4N07C0079                                           -----
                                             Work
    24        W91B4N07C0082                  Grading            $    130,500.00



                                        12
25   W91B4N07M0390       B-Hut Renovation         $    13,360.00

26   W91B4N07M0531                                $     6,570.00
                     Construct Base Ops B-hut
27   W91B4N07M0961   Construct Storage Shack      $     1,855.00

28   W91B4N07M1431   Repair Living Containers     $   144,600.00

29   W91B4N07M1463       Install Steel Gate       $     6,400.00

30   W91B4N07M1478      B-hut Construction        $    83,858.80

31   W91B4N07C0068             Grading            $   100,130.00

32   W91B4N07C0068         Modification 1         $    13,500.00

33   W91B4N06C0013   Construct 2-story Building   $   198,729.00

34   W91B4N07A0045      B-hut Construction        $     9,772.00

35   W91B4N07A0046      B-hut Construction        $    31,780.00

36   W91B4N07A0046         Modification 1         $     2,280.00

37   W91B4N07A0047      B-Hut Construction        $    10,825.00

38   W91B4N07A0047         Modification 1

39   W91B4N07A0048      B-Hut Construction        $    56,985.00

40   W91B4N07A0048         Modification 1

41   W91B4N07C0003         Concrete Pad           $    54,358.00
                      Construct Bunkers and
42   W91B4N07M1465                                $    29,496.00
                             Barriers




                          13
14
Joint Contracting Command-Iraq/Afghanistan Comments




                  Click to add JPEG file




                                 15
Click to add JPEG file




               16
Click to add JPEG file




               17
Click to add JPEG file




               18
Click to add JPEG file




               19
Click to add JPEG file




               20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing, Joint
and Overseas Operations prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Donald A. Bloomer
Timothy E. Moore
Jessica R. Crotts
Jillisa H. Milner
Ann L. Thompson
Meredith H. Johnson
Jeffrey C. Brown
